<html>
<title> - INDIA'S MISSING GIRLS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         INDIA'S MISSING GIRLS 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2013

                               __________

                           Serial No. 113-99

                               __________

        Printed for the use of the Committee on Foreign Affairs

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-762 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Matthew J. Connelly, Ph.D., professor, Columbia University.......     7
Sabu George, Ph.D., independent researcher.......................    22
Ms. Jill McElya, vice president, Invisible Girl Project..........    27
Ms. Mallika Dutt, president and chief executive officer, 
  Breakthrough...................................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Matthew J. Connelly, Ph.D.: Prepared statement...................    11
Sabu George, Ph.D.: Prepared statement...........................    24
Ms. Jill McElya: Prepared statement..............................    30
Ms. Mallika Dutt: Prepared statement.............................    39

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Material submitted for the record...............    64
The Honorable Ami Bera, a Representative in Congress from the 
  State of California: Material submitted for the record.........    68
Sabu George, Ph.D.: Material submitted for the record............    73


                         INDIA'S MISSING GIRLS

                              ----------                              


                      TUESDAY, SEPTEMBER 10, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3 p.m., in 
room 2200, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order, and good 
afternoon to everyone.
    Today's hearing will examine the problem of India's missing 
girls. While for most of us today our attention is drawn to the 
unfolding crisis in Syria--as a matter of fact, I began this 
morning on C-SPAN's Washington Journal program and yesterday 
introduced a resolution calling for the establishment of a 
Syrian war crimes tribunal--other atrocities continue unabated 
around the world. We cannot ignore these atrocities, among the 
most egregious of which is violation of human rights of the 
girl child and women in India.
    Women in India are confronted with a compounding crisis. By 
most estimates there are tens of millions of women missing in 
India due to devaluation of female life beginning in the womb.
    Sex-selective abortion and female infanticide have led to 
lopsided sex ratios. In parts of India, for example, 126 boys 
are born for every 100 girls. This in turn leads to a shortage 
of marriageable women, which then leads to trafficking in 
persons, bride selling and prostitution.
    I point out as prime sponsor of the Trafficking Victims 
Protection Act we have seen the consequences of the missing 
girls play out with devastating consequences not only in India, 
but in the People's Republic of China as well.
    Perhaps the best figures we have concerning the magnitude 
of the problem come from India's 2011 census figures, which 
finds that there are approximately 37 million more men than 
women in India. Indeed Prime Minister Singh has addressed this 
issue head on, stating, and I quote him in pertinent parts, 
``The falling child sex ratio is an indictment of our social 
values.'' He says, ``Improving this ration is not merely a 
question of stricter compliance with existing laws. What is 
more important is how we view and value the girl child in our 
society. It is a national shame for us that despite this, 
female feticide and infanticide continue in many parts of our 
country.''
    Even when they are not killed outright either in the womb 
or just before birth, the bias against girl children manifests 
itself in situations where family resources are limited and 
little food is available; in boys being fed before girls, 
leading to greater incidence of malnutrition among girls and a 
mortality rate that is 75 percent higher for girls below the 
age of 5 than for boys.
    The desire for a male child can be so great that there is a 
trend toward sex-change operations for girls between the ages 
of 1 and 5, a process known as genitoplasty. Each year hundreds 
of girls reportedly are pumped with hormones and surgically 
altered to turn them into facsimile boys. India's National 
Commission for the Protection of Child Rights has correctly 
stated that this highly unethical procedure is a violation of 
children's rights as well as a perpetuation of the age-old 
preference for boys and biases against the girl child.
    But the roots of the present problem lie not only with 
cultural factors, but also misbegotten policy decisions, 
including population control policies that were hatched in the 
United States and, as a matter of fact, right here in 
Washington, which have had a disproportionately negative impact 
on India's women.
    We will learn from our witnesses that this includes 
policies advanced by the United States Agency for International 
Development, or USAID, and funded by foundations such as the 
Ford Foundation and the Rockefeller Foundation, and abetted by 
nongovernmental organizations such as the Population Council 
and the International Planned Parenthood Federation.
    During the debate in the U.S. House of Representatives on a 
bill to ban sex-selection abortion, I noted that for most of us 
``it's a girl'' is cause for enormous joy, happiness and 
celebration, but in many countries, including our own, it could 
be a death sentence. Today, the three most dangerous words in 
India and China are ``it's a girl.''
    One witness today, Dr. Matthew Connelly, in his book, 
``Failed Misconception: The Struggle to Control World 
Population,'' traces the sordid history of sex-selection 
abortions as a means of population control.
    In her book, ``Unnatural Selection: Choosing Boys Over 
Girls, and the Consequences of a World Full of Men,'' Mara 
Hvistendahl elaborates, and I quote in part, ``By August 1969, 
when the National Institute of Child Health and Human 
Development and the Population Council convened another 
workshop on population control, sex selection had become a pet 
scheme.'' She goes on, ``Sex selection, moreover, had the added 
advantage of reducing the number of potential mothers. If 
reliable sex determination technology could be made available 
to a mass market, there was a rough consensus that sex-
selective abortion would be an effective, uncontroversial and 
ethical way of reducing the global population. Fewer women, 
fewer mothers, fewer future children.''
    At the conference, she goes on to say, one abortion zealot, 
Christopher Tietze, copresented sex-selective abortion as one 
of the 12 new strategies representing the future of global 
birth control. Planned Parenthood honored Christopher Tietze 4 
years later with the Margaret Sanger Award. And, of course, she 
wrote the book, ``Child Limitation,'' and another book which I 
read called, ``The Pivot of Civilization.'' In chapter 5 had--
was entitled ``The Cruelty of Charity'' and makes the case as 
to why pregnant poor women should not get prenatal care because 
you get more of those kinds of people who don't meet certain 
criteria. And I have read the book twice. It is a devastating 
indictment, and it certainly comported with the eugenics of her 
time.
    Hvistendahl writes that today, and I quote her again, 
``There are over 160 million females missing from Asia's 
population.'' That is more than the entire population of the 
United States of America, female population that is. And gender 
imbalance, which is mainly the result of sex-selective 
abortion, is no longer strictly an Asian problem. In Azerbaijan 
and Armenia, in Eastern Europe, and even among some groups in 
the U.S., couples are making sure that at least one of their 
children is a son. So many parents now select for boys that 
that has skewed the sex ratio at birth of the entire world.
    In the global war against baby girls, renowned AEI 
demographer Nicholas Eberstadt wrote in the New Atlantis, and I 
quote him,

        ``Over the past three decades, the world has come to 
        witness an ominous and entirely new form of gender 
        discrimination, sex-selected feticide implemented 
        through the practice of surgical abortion with the 
        assistance of information gained through prenatal 
        gender-determination technology. All around the world, 
        the victims of this new practice are overwhelmingly 
        female; in fact, almost universally female. The 
        practice has become so ruthlessly routine in many 
        contemporary societies that it has impacted the very 
        population structures, warping the balance between male 
        and female births, and consequently skewing the sex 
        ratios of the rising generation toward a biologically 
        unnatural excess of males.''

    Many European countries, including the United Kingdom, as 
well as several Asian countries actually ban sex-selection 
abortion. Even four States in America--Arizona, Illinois, 
Oklahoma and Pennsylvania--proscribe it.
    Sex-selection abortion is cruel and discriminatory, and it 
is legal. It is violence against women. Most people in and out 
of government remain woefully unaware of the fact that sex-
selection abortion was a violent, nefarious and deliberate 
policy again that was foisted upon us by the population control 
movement.
    While India has taken steps to curb these practices, indeed 
passing a law to ban sex-selective abortion, and tempered 
cultural facts such as the need for brides to provide a high 
dowry that contribute to parents looking at their daughters as 
a liability, these laws are largely--or irregularly, I should 
say, enforced.
    Moreover there are laws at the State level which exacerbate 
the problem, mandating that parents only have two children, 
penalizing those who exceed this number, and denying benefits. 
This leads inevitably to sex-selective abortion and 
particularly in poor areas female infanticide, as parents will 
opt to have a son over a daughter especially when their first 
child is a daughter.
    We hope that this hearing will help us better understand 
how we can play a role in curbing such horrific practices and 
abuses against the girl child and women. What, for example, can 
we do to ensure that companies based in the U.S., such as 
General Electric, whose ultrasound equipment is used to 
determine the sex of a child in utero, take steps to prevent 
what should be a tool to promote life for both mother and child 
from being used as an instrument of death? Given the past role 
of U.S. agencies such as USAID and coercive population-control 
policies, what oversight do we need to conduct and make sure 
that such abuses do not creep their way into existing programs? 
Similarly to what extent are organizations that receive funding 
from the United States Government implicated in such practices?
    What role can our State Department play beyond compiling 
information regarding what is occurring in India with respect 
to what some have labeled gendercide to influence positively 
the Indian Government so its reform laws and policies that 
exacerbate skewed sex ratios, such as two-child laws, two-
child-per-couple laws. By shining a light on what is happening 
in India with its missing girls, we hope to move forward toward 
a world where every woman is valued and deeply respected 
because of her intrinsic dignity, and where every child is 
welcomed regardless of his or her sex.
    I yield to my good friend Dr. Bera.
    Mr. Bera. Thank you, Chairman Smith, and thank you for 
holding this hearing really addressing the incredibly important 
issue of gender inequity not just in India, but certainly 
gender inequity throughout the world. And I look at this issue 
not just as a Member of Congress; I look at this issue as a 
doctor. But also the focus of this hearing is India, and I look 
at the issue as an Indian American, but the most important 
title I hold today is being the father of a daughter. And on 
that day where ``it's a girl'' was told to us by our doctor, 
that was an incredibly joyous day.
    When my wife and I think about how we are raising our 
daughter, we are raising her to be a strong woman. We are 
raising her to be in full control of her body and her choices. 
We are raising her to stand up against discrimination and not 
succumb to discrimination. And it is not enough that we are 
raising our daughter that way, but it is an imperative that 
every girl and every woman on this planet is empowered that 
same way. And at its core that is the purpose of why this is 
such a critical issue.
    Son preference and sex selection really are products of 
this gender discrimination, and to address them we really have 
to deal with the underlying causes of bias against women and 
girls, and these are incredibly complex issues. There is a 
complex web of socioeconomic and cultural factors that result 
in discrimination against girls. You know, the chairman 
identified a few of those. These then manifest in sex-selective 
practices. So we have to address those underlying causes.
    The only way to achieve long-lasting and real change is 
really to engage in community-level campaigns to change 
attitudes and change cultural norms that perpetuate this bias 
against women and girls.
    Other manifestations of gender discrimination are the 
abhorrent rates of sexual violence that occur; child marriage; 
domestic violence; honor killings; the denial of basic health 
care, including basic family planning and maternal health 
services.
    I just had the chance to visit India recently, and there 
are grassroots efforts, and there are some very strong Indian 
women that are addressing this issue at the root cause, and we 
will hear from some of these strong women today and our 
witnesses. But when I was recently in Mumbai, I had the 
opportunity to visit a group called SNEHA that was started by 
women doctors in India. The whole point was that they saw far 
too much gender discrimination, they saw far too much violence 
against girls in India. And they would go into the slums and 
start working with these girls to build up their self-esteem, 
to build up their strength. But they didn't just work with the 
girls, they also worked with the young men to change their 
attitudes, these boys, to make sure that they understood that 
women were equal to them, and they grew up as boys into men 
with an understanding of this gender equity.
    So it is incredibly important that we empower organizations 
like this that are homegrown organizations that are working at 
the grassroots level with girls to empower individuals.
    The best role for the U.S. to play is to remain a strong 
supporter and leader within the global community in order to 
best promote women's rights and the freedom of every woman to 
make personal decision about her health, her body and her 
future to really empower women.
    The U.S. is a global leader in providing investment in the 
health and rights of women and girls globally. USAID's family-
planning programs support healthy timing and spacing of 
pregnancies, community-based approaches, contraceptive security 
and integration with HIV and maternal and child health 
programs.
    The best way to empower a person and to prevent sex 
selection is actually to empower someone to plan when they are 
ready to start a family, to empower someone to plan when they 
are ready to get pregnant. That is just basic logic, and that 
is the best way to prevent sex-selective abortion.
    More than 222 million women around the world want to delay 
or prevent pregnancy, but they don't have access to basic 
contraception. In 2012, nearly 300,000 women died because of 
complications due to pregnancy and childbirth. Fully meeting 
the needs of contraceptive access and effective birth spacing 
would annually prevent 1.8 million deaths of children under 5. 
That is 25 percent of all child deaths. We can do better than 
this, and we have the tools and the methodology to help reduce 
this.
    I also want to make clear when talking about women's human 
rights, including reproductive rights, coercion of any kind is 
unacceptable in the provision of health care, and international 
leaders should oppose any human rights abuses by working to 
promote women's health and rights globally.
    Women everywhere should have the right to determine if, 
when and how often they have children. Likewise, all women 
deserve quality health care during and following pregnancy for 
both themselves and their families. And as a physician, I know 
that when women have equal access to quality health care, they 
lead a more empowered and fulfilling life.
    While the goal is to mitigate gender discrimination and 
move toward equitable women's human rights, it must be done so 
in a way that maintains her rights to make any reproductive 
health decisions that she deems appropriate for herself and her 
family.
    Finally, I would like to submit for the record an article 
written by Sneha Barot of the Guttmacher Institute regarding 
son preference and sex-selective abortion bans.
    Mr. Smith. Thank you very much.
    I would now like to go to Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman, for calling the 
hearing. I am not going to have any long remarks because they 
are going to be calling votes, I think, in about 35 or 40 
minutes, and I am anxious to get started.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, for holding this 
hearing, and this is something that is near and dear to my 
heart. As the chairman knows, I just applaud him on holding it. 
But as we start to look at the value that we place on life and 
little girls in particular, there is no greater tragedy than 
the story that is unfolding in India and in China as well, but 
particularly in India. And as we see this, it is something that 
we must stand up and be a strong voice internationally, and 
also be one that is unflinching in what we condone or don't 
condone. There are many times that we look at the economic 
viability of a nation, and we condone behavior in another 
nation as a trading partner, and yet we wouldn't condone it 
here in the United States.
    And I think that that same standard that we apply when we 
do not put value on life, and particularly in India on girls, 
not only does it create an imbalance, but it also goes further 
to just have horrific stories that are told day in and day out 
that touch my heart.
    It also promotes human trafficking, as we know. And my 
daughter, who has just turned 20, has made it a life goal to 
intervene in terms of human trafficking. And when you start to 
hear those kinds of stories on a daily basis where they have 
names, and they have parents, and they have grandparents, it is 
touching. It is something that I am committed to working with 
the chairman on to do all that we can do to stop this plague.
    And with that I yield back to you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows.
    I would like to now welcome our distinguished witnesses to 
the witness table, beginning first with Dr. Matthew Connelly, a 
professor of history at Columbia University. He has written two 
books and many articles. One of the books that he has written 
is entitled, ``Fatal Misconception: The Struggle to Control 
World Population,'' published in 2008, and is particularly 
relevant to our discussion today. This book was widelyacclaimed 
when it came out and has been the point of much discussion 
since. Dr. Connelly has also served as consultant to the Bill 
and Melinda Gates Foundation and the International Assessment 
and Strategy Center.
    We will then hear from Dr. Sabu George. Dr. George is an 
expert in the field of female infanticide, girl child neglect, 
and female sex selection, and has worked on these issues for 
over 28 years. He has written one-child sex ratios--he has 
written on child sex ratios, genocide and sex-selection, and on 
emerging technologies of sex selection. He has undertaken 
extensive field research in India, was involved with the public 
interest litigation in the Indian Supreme Court to restrain the 
misuse of fetal sex determination. Dr. George has been 
appointed by the Government of India to monitor the issue of 
fetal sex determination and has spoken many times, again, on 
this topic.
    We will then hear from Ms. Jill McElya, who is an attorney 
whose experience includes extensive public service. In 2008, 
she moved to India to serve in a field office of an 
international human rights organization. While living in India 
for 2 years, Jill and her husband were exposed to the practice 
of female gendercide. After extensively studying the issue and 
forming relationships with Indian organizations that combat the 
problem, they founded the Invisible Girl Project to end 
gendercide in India by raising global awareness concerning the 
loss of female lives in India, pursuing justice for lives lost, 
and assisting Indian organizations in the rescue and care of 
vulnerable Indian girls.
    We will then hear from Ms. Mallika Dutt, who is a founder 
of global human rights organization Breakthrough. Working 
worldwide through centers in India and the United States, 
Breakthrough seeks to make violence and discrimination against 
women unacceptable by engaging in a diverse range of actors to 
promote values of dignity, equality and justice. Ms. Dutt is 
member of the Council of Foreign Relations and serves on 
several boards and communities including the World Economic 
Forum, Global Agenda Council on India, Games for Change and the 
Public Interest Project.
    Dr. Connelly, if you could begin, you all could come to the 
table, I would appreciate it.

 STATEMENT OF MATTHEW J. CONNELLY, PH.D., PROFESSOR, COLUMBIA 
                           UNIVERSITY

    Mr. Connelly. Chairman Smith, members of the committee, 
thank you for giving me this opportunity.
    I am a professor of history at Columbia University, and I 
spent some 10 years researching population control around the 
world. I worked in more than 50 archives, and I interviewed 
some key figures in USAID, in the Indian Government, in the 
United Nations and leading NGOs, and what I discovered is that 
sex-selective abortion is not something that we can blame on 
backwardness. Rather than a problem of benighted people who 
need to be developed, it was actually development professionals 
who first promoted the idea of helping people to have only 
sons.
    The story begins in the 1960s when the U.N., the wealthiest 
foundations and a host of Nobel Prize winners agreed that 
population growth was one of the gravest threats facing 
humanity. Both the Democratic and Republican Party platforms of 
1968 agree that population control should be an urgent 
priority. Paul Ehrlich's ``The Population Bomb'' famously 
predicted massive famines, and he called for using food aid to 
force poor countries to control population growth. But Ehrlich 
was a Stanford biologist, so he also called for more research. 
And I am going to quote from ``The Population Bomb'': ``If a 
simple method could be found to guarantee that first-born 
children were males, then population control problems in many 
areas would be somewhat eased.''
    The head of research at the Planned Parenthood Federation 
of America, Steven Polgar, is also an advocate of sex-selective 
abortion and for the same reason. Bernard Berelson, president 
of the Population Council, considered it one of the more 
ethical methods of controlling population growth. It is not 
surprising, considering some of the other methods that Berelson 
and Ehrlich were considering, such as introducing sterilizing 
agents into the food and water supply.
    The Population Council sent the head of its biomedical 
division, Sheldon Smith, to New Delhi, and it was Segal--or 
Sheldon Segal, I should say, who first introduced Indian 
doctors in how to determine the sex of a fetus, the practice 
that he promoted as a means to control population growth.
    The men who led population-control programs--and they were 
all men--gave no consideration to the consequences of reducing 
the relative number of women. In India, Pakistan, Bangladesh 
and Indonesia, Western diplomats helped pay people to be 
sterilized, and Western consultants advised denial of health 
care and education to those who refused.
    When in 1975 Indira Gandhi declared a state of emergency 
and used the police and army to march people to sterilization 
camps, foreign donors increased their support. In the span of 1 
year, India sterilized some 8 million people and gave the green 
light to States to make sterilization compulsory. ``At long 
last,'' World Bank president Robert McNamara declared, ``India 
is moving to effectively reduce its population problem.'' Now 
instead, Indira Gandhi was voted out of office, and in 1978, 
Indian feminists succeeded in having sex-selective abortion 
banned from government hospitals.
    Now, India had long been a testing ground for population 
control, but popular democracy limited what could be done 
there. It was Communist China with its one-child policy who 
took population control to new extremes. Now here again Western 
advisers provided crucial support. The Chinese affiliate of the 
International Planned Parenthood Federation had 20 million 
volunteers. U.N. computers were crucial in calculating the 
number of birth permits for each commune, and U.N. centers 
trained 70,000 personnel to back them up.
    Periodic crackdowns peaked in 1983, when China sterilized 
over 20 million people and carried out 14 million abortions. 
The U.N. responded by awarding the head of the program with the 
first U.N. Population Award. Indira Gandhi was the cowinner.
    A bit of resistance in rural areas gradually led Chinese 
cadres to allow farmers with one daughter to try to have a son, 
but a key element in this mutual accommodation was the 
ultrasound machine; ultrasound machines, which started to 
become imported abroad, at least some of them through 
international grants and loans. It is hard to know how many 
because the World Bank, for instance, won't open up its files 
to let us find out what it was providing.
    But it is important to note that this wasn't just a matter 
of international organizations and nongovernmental 
organizations. It was also a matter for the private sector, and 
especially General Electric. Producing ultrasound machines was 
GE's first joint venture in China.
    Now, to be sure, both India and China have tried to stop 
the practice, but these governments long sought to make parents 
ashamed merely for having more than one or two children when 
they did not make actually make it illegal. Now, why should we 
be surprised when couples now ignore government decrees, 
especially when they would limit their ability to plan their 
own families?
    Now, similarly for decades American experts and activists 
advised Asian countries to adopt these manipulative and 
coercive measures, employed untested and risky medical 
technologies, and used Western loans and grants to pay for it 
all. Now, the results were so disastrous that in India the term 
``family planning'' itself is completely discredited, and 
advocates must use euphemisms like ``family welfare.''
    Now, we should not, therefore, expect that Asian countries 
will be eager to hear our advice. But it is precisely because 
the U.S. took a leading role in population control that we 
cannot pretend we have no responsibility for the consequences.
    The first step is simply to acknowledge this history. It 
was only after a long, hard struggle that family-planning 
organizations rejected population control and rededicated 
themselves to the principles of reproductive rights and health. 
As long as these organizations refuse to come to terms with 
this history, they will be vulnerable to accusations that they 
are still trying to control people instead of empower them.
    Now, the world is a very different place, and these 
organizations are very different from what they once were, but 
the future will present radically new challenges and new 
dangers. Now, we know longer face a population explosion after 
all, and more and more countries are adopting incentives to 
boost birth rates, and they may be tempted to try more coercive 
measures. My great fear is that instead of population control 
to reduce population growth, we are going to see the return of 
pronatalist programs and policies like we saw in the 1930s in 
places like the Soviet Union and Nazi Germany.
    Now, many individual couples are desperate to have 
children, of course, and this is especially the case in African 
countries which have stratospherically high infertility rates. 
And in wealthy countries some are tempted to use biotechnology 
to have superior offspring, or even to outsource their 
pregnancies to India.
    These issues pose excruciating ethical choices, but none 
turn on intractable issue of when life begins. Instead, they 
turn on something no less fundamental: The quality of life and 
the way our choices can make life more or less meaningful.
    Now, my hope is that pro-life and prochoice people of good 
faith will begin to find common ground. We must work together 
to ensure that everyone has access to birth control and the 
help they need to bear and raise children without coercion or 
manipulation. We might agree that society has an interest in 
potential life to be balanced against the rights of the mother 
and together fight sex-selective abortions worldwide, and we 
could demand that infertility treatment become part of 
comprehensive health care for all, in Africa no less than the 
United States.
    To conclude, it is not enough merely to insist on choice. 
Choices can be conditioned by design or default in ways that 
lead to new kinds of oppression. And the defense of life can 
also become a symbol without substance if the effect is to 
drive people to breed. Reproductive freedom is a cause that can 
and must stand on its own now more than ever, but it can only 
take flight if it is animated by a vision of social justice in 
which every one of us is conceived in liberty and created 
equal. Thank you.
    Mr. Smith. Dr. Connelly, thank you very much for your 
testimony.
    [The prepared statement of Mr. Connelly follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Smith. Dr. George.

    STATEMENT OF SABU GEORGE, PH.D., INDEPENDENT RESEARCHER

    Mr. George. I am most grateful to the U.S. Congress for 
holding this hearing. Particularly I thank the chair, Chris 
Smith, Representative Mr. Bera, and Mr. Weber, and Mr. Meadows 
and Mr. Marino for coming at this point despite a crucial 
debate on Syria in the House.
    I am greatly honored to be here, to be invited by a 
committee which was once chaired by a great Congressman like 
Tom Lantos of California.
    My name is Sabu George, and I have been working on 
protecting girl children for the last 28 years. I have had the 
great privilege of studying public health and nutrition. I 
lived in U.S. for 9\1/2\ years.
    And I am delighted that a lot of the remarks which Mr. 
Chris Smith spoke about, the early history, is something I 
don't need to repeat. And in terms of the challenges in terms 
of what population control faces today, Mr. Bera has addressed 
that, so I think we have many things which I need to state 
which has already been said.
    Yes, we are dealing with sex selection has become a 
genocide. More girls in India and China are eliminated every 
year than the number of girls born in America. Today you have 2 
million girls born in America, but we have more than that being 
eliminated in India and China. Particularly in the Indian 
context over last decade, India eliminated more than 6 million 
girls. This is much larger than the number of Jews eliminated 
during the Holocaust.
    And I think what I would like to emphasize very clearly, we 
have a history of discrimination against women for several 
centuries, but the kind of magnitude of discrimination what we 
are seeing in the country today has no parallel. And I think 
Chris Smith has emphasized it, and therefore what I would like 
to emphasize is that what we are facing today in eastern India, 
southern India, in Kashmir, in Himalayan States, which does not 
have the forms of discrimination against women as in northwest 
India, we are seeing these parts. So the role of the medical 
profession, the role of corporations cannot be ignored.
    While I think we have seen emergence of consequences like 
forced polyandry, which is hardly talked about in northwest 
India, several men sharing one wife, which is common, the 
levels of violence against surviving women are increasing, and 
what is most disturbing for us is that in the coming decades, 
what progress woman had achieved in education and employment 
opportunities will indeed be very strongly affected because of 
the threat of violence in homes and outside homes.
    I think history of sex selection all of you have heard. But 
I think coming to the corporations that the chairman Chris 
Smith had talked about, the role of GE, I mean, you had the 
Wall Street Journal write about it. Now I think I would like to 
look at the role of Google, which today promotes new 
technologies of sex selection. Today they are advertising new 
products long before they are proven to be effective.
    We would appeal to all of you to ensure that the U.S. 
corporations respect Indian law. And recently we saw this case 
of online advertisement which Google was caught in a sting, and 
the Justice Department had a major settlement, got $500 million 
fined from Google. We hope that U.S. corporations will abide by 
the laws in our country, and I have a petition against Google 
in the Indian Supreme Court. We have heard the kinds of 
arguments like Google India tells us, you know, to the court, 
we don't know who Google--what--who owns Google America. So we 
hope, sir, that American corporations do not benefit from the 
holocaust what is happening in our country.
    We have a good law against sex selection, and I would like 
to emphasize, sir, that there is a State like Maharastra, which 
is one of the biggest States, where, because of the work of a 
good lawyer like Varsha Deshpande, more than 50 doctors have 
been convicted, which is a great thing in our Indian legal 
system, which goes on perpetually.
    And so law makes a deterrence. Unfortunately the rest of 
India, we don't have that, and we do need to ensure that 
changing mindsets is one part, but ensuring in the context of a 
genocide that laws need to be followed.
    And so you had mentioned about funding USAID. You had 
mentioned about international organizations. I think what I 
would like you to be very, very clear, sir, is that the 
history, we should not forget the recent history. There are 
times when USAID was thrown out of the country because the 
Indian Government didn't like it. And I think it is extremely 
important, sir, not just to focus on cutting funding to USAID, 
cutting funding to international organizations, but engaging 
with the government, dealing with what needs to be done, 
because ultimately, you know, it is extremely easy in our 
country to raise factions against any big powers and which will 
not solve the problems of millions of our poor women.
    And, sir, please do not see sex selection, which is an 
extreme form of violence against women, as a problem of 
abortion. It is extremely important in the Indian context where 
entire responsibility of contraception is put onto women, where 
men don't accept any responsibility, that women do have to have 
rights for abortion in our country.
    And so we request that the American Government, the 
American Congress does indeed actively engage with the 
Government of India, with the Indian Parliament and ensure 
that, you know, this holocaust does not continue. Thank you.
    Mr. Smith. Thank you very much, Dr. George.
    [The prepared statement of Mr. George follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ms. McElya.
    Mr. Weber. Is it McElya?
    Ms. McElya. It is McElya. Thank you. Very good. I think you 
are one of two people I have ever met who actually pronounced 
it right.
    Mr. Weber. Your husband and me.
    Ms. McElya. That is true.

 STATEMENT OF MS. JILL MCELYA, VICE PRESIDENT, INVISIBLE GIRL 
                            PROJECT

    Ms. McElya. Chairman Smith, members of the subcommittee, 
thank you so much for inviting me to testify today about an 
issue that I have become very passionate about, and that is 
India's missing girls. As you heard in my biography from 
Chairman Smith, I was living in India, I am an attorney, and I 
was working for a human rights organization. My husband is a 
pharmacist, and he was doing medical camps in India at the 
time. And that is when we were exposed in 2009 to the practice 
of infanticide, which Chairman Smith talked about, which is the 
killing of a little girl when she is born just because she is a 
girl.
    My husband was in a rural village in south India, and he 
noticed that there were all these little boys running around, 
and there were no little girls. He learned that in this village 
the boys outnumbered the girls eight to one because of the 
practice of infanticide.
    He met a young woman I will call Prima today. Prima was the 
twelfth daughter born to her parents. Her mother felt intense 
pressure to have a son, and so she would become pregnant, give 
birth to a little girl, and then she and her husband would kill 
their own daughter. Once again, she would become pregnant 
because there was pressure from her husband and her in-laws to 
bear a son. She would have a daughter, and she and her husband 
would kill their own little baby girl. They did this 11 times, 
11 times, and then they had Prima. And they decided, well, I 
guess we are not going to have a son; I guess we will spare 
Prima's life.
    This is a face, this is a name behind the reality of 
infanticide in India. And when we were exposed to it in 2009, 
my husband and I decided we must move to action to do whatever 
we can in a country that we grew to love to combat this 
terrible practice which is extreme discrimination against 
little girls that has resulted in this gendercide, which is the 
genocide of women and girls in India. And that is when we 
founded Invisible Girl Project, and our mission is to end 
gendercide in India. We do this through partnering with 
indigenous organizations that are already doing wonderful work. 
We support these Indian organizations to combat this 
gendercide.
    And so through our work we have learned, of course, that 
infanticide is just a small part of this gendercide. As 
Chairman Smith mentioned feticide, sex-selective abortion is 
also a huge part of it.
    I sit before you today, I am 8\1/2\ months pregnant with my 
second daughter. If I were a woman in India today, I would 
receive intense pressure, strong-arming, most likely, from my 
husband and my in-laws, to receive a sex-determination 
ultrasound to determine whether I was having a boy or a girl. 
This is illegal in India. The Prenatal Diagnostic Techniques 
Act of 1994 made this illegal. It is illegal to have an 
ultrasound to determine whether you are having a boy or a girl. 
But the law is not upheld. So as a pregnant woman, if I were in 
India, my in-laws would likely be pressuring me to have this 
sex-determination test done. If I complied and then realized I 
was having a little girl, I would then receive intense strong-
arming to have an abortion just because I am pregnant with a 
daughter.
    This practice is so widespread throughout India. There are 
estimates there are 2,000 sex-selective abortions performed 
daily in India of little girls. There is an estimate that there 
are 2 million little girls who are aborted annually just 
because they are girls.
    And I talk about the coercion that these women face from 
their in-laws, from their husbands to bear a son, because 
coercion is a huge part of this. These women are denied any 
choice. They are forced to break the law, to have sex-
determination tests done, to have sex-selective abortions 
performed, and this is against the law in India.
    The law even recognizes the coercion. As an attorney, of 
course, I have read through this act thoroughly. I have read 
through the Supreme Court decisions on this act. And it is 
important to note that the law recognizes the coercion by 
family members. Family members can even be found guilty of 
breaking the law. Unfortunately, though, this law is not 
upheld, and so sex-selective abortion is widespread, and it is 
proliferating.
    As such, gendercide, infanticide, feticide, neglect, as 
Chairman Smith mentioned, accounts for such a huge chasm in the 
population. There is trafficking, there is marriage of child 
brides, because 37 million men, as a 2011 census pointed out--
there are 37 million more men than women in India, and these 37 
million men have no brides, they have no one to marry. So women 
are trafficked in from other countries, they traffic children 
to become brides, and, as you know, sex trafficking has become 
a huge issue in this country.
    People want to fight sex trafficking, but people don't 
realize the route is gendercide, especially in India, because 
there is this chasm in the population.
    There are studies that also show that violence against 
women is a result of gendercide, of the chasm in the 
population. We are all familiar with the rape case that 
happened in Delhi where there was a young woman who was a 
student who was raped on the bus and later murdered. Well, she 
died because of the rape, this gang rape. I will argue before 
you today that violence such as this is because of this chasm 
in the sex ratio between men and women, which is all a result 
of gendercide.
    As Americans we have taken the lead in asking countries to 
report on how they are combating trafficking. Isn't the murder 
of girls and women which leads to trafficking every bit as 
important?
    Countries must report on what they are doing to save the 
lives of their daughters, and that is what I ask you today. 
Just as my husband and I were compelled in 2009 to start 
Invisible Girl Project to save the lives of little girls in 
India, I ask that you take the lead, that your ears be open 
today, and that you fight to save the precious lives of 
voiceless little girls who cannot save themselves.
    Let us ask these countries that have these huge chasms in 
their sex ratios that are allowing this gendercide to go on to 
report what they are doing to save their daughters so that 
girls no longer go missing.
    Thank you.
    Mr. Smith. Thank you very much for your testimony.
    [The prepared statement of Ms. McElya follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Ms. Dutt.

 STATEMENT OF MS. MALLIKA DUTT, PRESIDENT AND CHIEF EXECUTIVE 
                     OFFICER, BREAKTHROUGH

    Ms. Dutt. Thank you, Chairman Smith; Representatives Weber, 
Meadows and Bera--oh, we missed Representative Meadows. He just 
walked out the door. But I thank the rest of you for being 
here, and really thank you so much for your attention to this 
very, very critical issue facing women in India and around the 
world.
    As you have all already pointed out, gender-based 
discrimination is a global pandemic. It is the largest human 
rights global pandemic, and it takes many, many different 
forms, including dowry, honor killings and sexual assault, 
rape. Just today the Delhi court handed down a verdict on the 
gang rape that my copresenter just referenced. And really all 
of these forms of gender-based discrimination and violence stem 
from this larger issue of patriarchy and son preference that 
plagues India and so many other parts of the world. And gender 
bias sex selection is just another pernicious form of gender 
inequity, a harmful practice, which, as we have already heard, 
has led to a very alarming decline in the number of girls in 
parts of India and, in fact, many parts of the world.
    I am president of Breakthrough, a human rights group that 
seeks to make discrimination and violence against women and 
girls unacceptable. Our approach is to use multimedia tools 
along with community engagement to really try and transform the 
cultural norms and social practices that violate human dignity, 
and that really underlie the many violations and abuses that 
women and girls face.
    We believe that human rights must begin in our hearts, in 
our homes and in our own practices; that human rights, as 
Eleanor Roosevelt so eloquently said, begin in small places 
close to home.
    Over the last 12 years, we have learned several lessons, 
and based on that, I offer the following recommendations to 
this committee: The United States must assume a position of 
global leadership in confronting the underlying factors that 
foster gender discrimination, first by sustaining and 
strengthening investments in global health and development, 
and, second, by advocating for the equity of women and girls to 
be at the center of the global development agenda. This 
approach, of course, is consistent with human rights 
instruments, such as the International Conference on Population 
and Development's Programme of Action, which the United States 
has also endorsed.
    Breakthrough is currently working to address the issue of 
gender-based sex election in Haryana, which at 877 females to 
1,000 males has the lowest sex ratio in India. What we are 
doing in Haryana is to engage multiple community stakeholders 
that include government officials, that include media 
professionals, women and men in rural and urban areas, medical 
practitioners, educational professionals, young people, doing 
research for them to really look at the underlying causes of 
gender-based sex selection so that we can challenge patriarchal 
norms and son preference. This integrated approach is 
increasingly being viewed as an effective one by U.N. agencies, 
governments and many others.
    In order to figure out the best communications and advocacy 
strategy, we have conducted comprehensive baseline research. 
And what we found through our interviews with these different 
stakeholders is what all of you have already pointed out: There 
are complex factors, social, economic and political, that 
include dowry and inheritance laws; lack of women's agency in 
relation to safety, security and sexuality; ineffective 
implementation of our existing laws; and lack of women's 
financial independence that leads to gender-biased sex 
selection.
    To be clear, bans on access to reproductive health are not 
an appropriate solution. Similarly, research has found that 
while technologies used for sex selection have compounded the 
problem, they are not the root cause. So we believe very 
strongly that access to value voluntary family planning and 
safe and legal abortion remains vital to fulfilling women's 
human rights. In other words, we should not take away the 
rights of women and girls to promote their rights.
    As was well documented by the professor to my right, gender 
bias in India is also rooted in historical acts of 
discrimination, including forced sterilization, coercive 
reproductive health programs, and many other violations. I have 
been part of the global women's movement to ensure that these 
kinds of historical abuses are condemned, and that women's 
rights are universally upheld. And I deeply believe that in 
India, the largest democracy in the world, the path forward to 
reducing widespread gender inequity and sex selection is 
through comprehensive and community-based culture change 
solutions that have to be driven by Indian stakeholders 
themselves.
    The most critical contribution that this committee can 
therefore make now is to sustain U.S. investments in global 
health and development. Current American aid to India has to 
ensure access to education, food, water, energy and health 
care, including safe childbirth and voluntary family planning 
for some of the most vulnerable women and girls in the country.
    All of these elements are vital to improving the status and 
rights of women and girls and, with it, to reduce the 
underlying causes of son preference.
    Once again I would like to extend my thanks to all of you 
for bringing attention to this very important issue.
    Mr. Smith. Thank you very much, Ms. Dutt.
    [The prepared statement of Ms. Dutt follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Let me beginning the questioning if I could with 
you.
    You know, Jill McElya made a point in her testimony that 
some 2 million girls' lives are snuffed out through sex-
selection abortion in India every year, which is a horrifying 
number. We, and I personally, with the killing fields that 
occurred in Darfur, which is probably about 500,000, spent an 
extensive amount of time, as did other interested Members of 
Congress and human rights organizations, to try to bring 
attention to and stop the slaughter in Darfur.
    Mr. Weber. Mr. Chairman, it is 5,479 per day.
    Mr. Smith. An extraordinary number of loss of girls' lives 
simply because they are girls.
    So I find it a disconnect, if I could, with all due 
respect. I believe that pernicious bias and prejudice against a 
girl child and women in India or anywhere else begins in the 
womb, especially when such large numbers of girls are 
slaughtered either through chemical poisoning or through 
dismemberment. And I know methods of abortion are often 
encapsulated with phrases or sloganized into choice rhetoric, 
but the actual deed, with all due respect, is dismemberment; 
pills that make the girl child or a boy unable to continue 
living inside the womb, like RU-486, first starves them to 
death, and then the second action of that chemical combination 
is to cause the expulsion of the girl from the womb. And then 
there is dismemberment, which is either D&E--and I have been 
involved in the pro-life movement for 40 years, and I am 
steadfast about human rights being from womb to tomb. And I 
agree when you say, as you said so eloquently, gender-based sex 
selection is another pernicious form of gender inequity, a 
harmful practice that has led to an alarming decline in the 
number of girls in parts of India and other parts of the world, 
and then later on in your testimony you argue for continuance 
of abortion.
    We have that same argument going on here, as you know, and 
you are here, but in the United States Planned Parenthood was 
found through an undercover operation to be telling--and I have 
watched them all, all of the undercover women who were 
pregnant, went in, were told that if they wait until 5 months, 
do a ultrasound, and if it is a girl, kill it. And one of those 
Planned Parenthood clinics is right next to my office in New 
Jersey.
    I find a horrible disconnect there between empathy, love, 
compassion and respect for the girl child in utero, and then a 
willingness under the rubric of freedom of choice to say, but 
nevertheless you can be killed through dismemberment, chemical 
poisoning or some other way that is a an act of violence. So 
help me to understand how you can argue both, if you will.
    Again, and I will conclude on this before going, we have 
seen the devastating consequences. India itself has outlawed it 
as has the U.K., four States, as I noted. We are trying to do 
it here and have failed, and it is growing in its incidence and 
prevalence. It seems to me that if you treat the girl with such 
impunity and prejudice while she is in utero, why do we expect 
at the event of birth--and it is only an event that happens to 
a child, it is not the beginning of life--that somehow, poof, 
we are going to now show respect for that girl? That kind of 
prejudice then gets--continues because it has been--it began 
right from the start.
    Ms. Dutt. So thank you for raising all of those very, very 
important points.
    I would like to share a story with you, if I may. In 1985, 
a very dear friend of mine was in a car accident in Bombay, and 
she, because she was so badly injured, ended up in a public 
hospital which didn't have the greatest of amenities. And so 
several of us who were friends spent time taking turns to be at 
the hospital with her, because that was the only way she could 
ensure the kind of care that she needed.
    And so I had night duty for 2 nights in that hospital, and 
she was placed in the women's wing, because that is where all 
of the women were. And it was one of those sort of life-
altering experiences for me, because the vast majority of the 
other women in that ward were young women who had been burnt 
for dowry. So there were--I mean, there must have been at least 
200 women in that ward. I would say 80 percent of them were 
suffering from deep third-degree burns. They were covered with, 
you know, bandages, in enormous pain. Many of those women were 
on the floors on mattresses because there weren't enough beds, 
and because I was on duty at night, I spent most of my time 
running around the ward chasing off rats that were trying to 
nibble at and eat the young women that were on the floor, or 
then trying to get nurses there to give them pain medication 
because they were in so much pain, and they were screaming so 
much.
    I shared this story with you to say that I believe that in 
order to empower women, and in order for women to be able to 
exercise the choices that they need to make about their lives 
and who they are, that the right to abortion has to be part of 
that narrative, because women are so deeply disempowered that 
to take away rights in order to give them rights just doesn't--
it just doesn't make sense to me.
    I totally understand what you are saying about the problem 
of gender-based sex selection and how we are missing all of 
these young girls, but I am not agreeing with you on the cause 
and effect of this. It is not that that causes the kind of 
violence and discrimination that women and girls face. It is a 
lifecycle problem. If you come with me to Varanasi and meet the 
widows who live on the ghat and the bank, who have been sent 
there because they cannot live at home anymore after their 
husbands are dead--just today we saw the sexual assault rape 
conviction come down. I mean, I have worked with and dealt with 
young girls and women who have been raped and violated in all 
kinds of ways. And so this is my life's work. And again, I 
would say that in order to promote women's human rights, you 
can't take away rights from them.
    Mr. Smith. I would just say very briefly--and I, of course, 
respect you--many of us do see birth as an event. We look at 
people like that, like Bernard Nathanson, who founded NARAL, 
and was an--he did more abortions than perhaps anyone else in 
his time. And when he stopped doing them he wrote in the New 
England Journal of Medicine: ``I have came to the agonizing 
conclusion that I have presided over 60,000 deaths.'' He ran 
the largest abortion clinic in New York City at the time.
    Those of us on the pro-life side, with respect to your 
position and to you, do see abortion as a horrific form of 
violence. It is not a benign deed. It either dismembers, hacks 
to death, the Indian abortions, and they are done, you know, in 
mid to later term in the gestational cycle, and, of course, sex 
selection usually isn't done until about the fifth month when a 
gender determination can be made. So these are big kids being 
dismembered, and they die suffering excruciating pain.
    We had a bill on the floor called the Pain Capable Unborn 
Child Protection Act, and the overwhelming body of evidence--
and there is people who disagree, and there always will be--say 
that these children feel pain. So not only are their lives 
snuffed out violently, they do feel pain. And again, when it is 
being done for the sole purpose or overriding purpose of 
ridding that family of a girl, that is a form of 
discrimination.
    So I--again, I just convey that to you from my heart to 
yours as a deep concern.
    Did the Ford Foundation ever embrace--because I know you 
worked there--sex-selection abortions?
    Ms. Dutt. Oh, absolutely not. I mean, by the time that I 
got to the Ford Foundation, which was at the end of 1996, the 
foundation had a very strong reproductive rights program. And, 
you know, having been part of the women's movement that was 
involved in the Cairo conference, where we actually challenged 
a lot of the population and coercive reproductive policies that 
were described by the professor earlier, I am very much a part 
of that movement, there is no way I would have gone to the 
foundation if that is what their policies were.
    One of the things that I did in Cairo was actually convene 
a tribunal where women from around the world testified as to 
their reproductive rights and the abuses that they had 
experienced either at the hands of government policies, or 
because of their denial to access to reproductive rights and 
reproductive health services, including, you know, so many of 
the issues that women face simply because of poverty and lack 
of access to basic health care.
    Mr. Smith. I was actually at the population conference for 
a week and was part of the delegation under the Clinton 
administration, and I was shocked, dismayed and sickened that 
Madame Peng Peiyun, who I met with on another occasion in 
Beijing, who ran the Coercive Population Control Program in 
China and argued there was nothing coercive about the Chinese 
program, told me that, and said the UNFPA is here, and they 
give it a good, clean bill of health as well, in plain day 
reminded me of those who said during the Stalin years in 
Ukraine that there is no effort to destroy so many people 
through famine, a deliberate policy of extermination of 
Ukrainians, and then there were people who then say, oh, but 
that didn't happen. Well, it was happening in China. She was 
feted and lifted up as a great leader at the Cairo Population 
Conference, even though she is one of the architects and was an 
aggressive implementer of the egregious one-child-per-couple 
policy.
    Let me just ask one final question because of time. I want 
everybody to--Dr. Connelly, you might want to comment on what I 
was saying. Yes, please.
    Mr. Connelly. Well, you know, as an historian I am not 
always well informed about the present, but I will say that, 
you know, for those who would like to do research, you know, on 
the history of how the Ford Foundation worked in the field of 
population control, and how the Ford Foundation changed in the 
ways that Mallika Dutt has explained to us, you can just go to 
the archive, and it is remarkably open, and you can read, you 
know, file upon file of internal memos and correspondence and 
so on.
    On the other hand, you know, if you want to probe the 
history of the Roman Catholic Church and its role in limiting 
reproductive rights and supporting pronatalist policies, as I 
have in Rome in trying to work the Vatican archives, you meet 
stonewall after stonewall.
    So I think as an historian, to be totally honest, I think 
the Ford Foundation has come a long way. The Vatican, I think, 
is less clear.
    Mr. Smith. Let me go to Dr. Bera, and then if we have time, 
I will do a second round.
    Mr. Bera. I will try to keep my questions short so Randy 
can ask some questions.
    You know, I think there is general agreement across all of 
us that coercion in any form is wrong and should be 
unacceptable, whether it is done at the population level or 
whether it is done at the individual level. Coercing someone to 
do something that is not what they want to do, you know, is 
just a basic fundamental principle. And the opposite of 
coercion is how do you empower people to, you know, be strong, 
to be able to make their own decisions, to stand up to make 
their own decisions, to have the freedoms to make their own 
decisions. And, you know, the subject of this hearing goes to 
the most basic of fundamental freedoms: Control over your body, 
control over making the decisions that are most sacred to you, 
control over your reproductive freedom.
    So I think all of us are unanimous that any sex-selective 
practices are--you know, are heinous, and how they are put out 
there, and certainly we should as an institution do what we can 
to minimize sex-selective practices across the world. But these 
are complicated issues that have complicated roots.
    I think Dr. Connelly pointed out some of the historical 
background that talked about where we are today. And these are 
issues that, you know, are incredibly complex, that require 
local solutions, that require solutions that are homegrown, and 
whatever we can do as an institution to help empower that.
    You know, let me ask Ms. Dutt a question. You did point out 
a number of the weak causes and the complexity of why gender 
discrimination, why discrimination against women and girls in 
India, is so prevalent and so complex. Given your expertise in 
this area, can you speak about some of the best practices that 
are homegrown in India? You touched on your program, but those 
practices that, you know, are empowering women, that are, you 
know, providing reproductive health services to them, and, you 
know, really kind of from the ground up that are in India.
    Ms. Dutt. So in terms of some of the lessons learned--and I 
will also ask Sabu to weigh in, because he has done so much 
work in this area as well--I think that the best results really 
emerge from programs that involve the local community in making 
the program decisions and in making sure that the most 
marginalized amongst the groups have access to those services.
    I think that the other thing that is very important is that 
you have to take a rights-based approach to providing services 
to women. If you merely look at it as a health practice without 
actually looking at the underlying issues that may enable or 
prevent a woman from even being able to go to the doctor--I 
mean, you can't just set up a clinic without looking at the 
factors that enable women and girls to visit the clinic in the 
first place. So it is those kinds of solutions that really take 
into account the entire community and also bring in multiple 
stakeholders.
    Let me give you another example. One of the campaigns that 
we did a few years ago was called Ring the Bell, which 
challenged domestic violence by engaging men and boys to become 
part of the solution. So we tried to shift men and boys' 
engagement simply being seen as perpetrators to say, listen, 
you have a responsibility to be a part of the solution. And 
that reframing of the issue has led to a very different kind of 
conversation around domestic violence in the States in which we 
have been working. We have also seen a 15 to 20 percent 
increase in reporting on domestic violence and an increasing in 
awareness about the act as a result of taking a broader 
stakeholder approach.
    In our work on early marriage in Bihar and Jharkhand we 
have just launched a campaign where we are really talking to 
the fathers, because what we have discovered is that they are 
the ones who are making the decisions around when their girls 
and young women get married. And we just were having a lot of 
success in engaging fathers to come to the table and say, we 
are the ones who have to start making some of these differences 
in order to move forward.
    Mr. Bera. Dr. George, let me ask you a question. You 
touched on the history of some of the laws that India has 
enacted. What do you think the Indian Government has done well, 
and then conversely, what are the things that you would suggest 
the Indian Government should be doing?
    Mr. George. Thank you, Mr. Bera.
    As a doctor and as an Indian, I think you should look at 
the role of the medical profession in our country. Since they 
are so organized and so powerful, they tend to put a lot of 
pressure on the girls. So, you know, those of us who are 
campaigning against the misuse of the medical ethics and 
technology, et cetera, have--like in the case of Maharashtra, 
there has been quite an impact there because the law is upheld.
    So we cannot give up only, you know, judicial systems. It 
is a very slow process. I spent a significant amount of time in 
the courts, from the 3rd of September, you know, I was there in 
the Supreme Court. Now, the 17th I am missing because I am just 
taking a few days to go back home.
    So what I am trying to say is that, yeah, laws make a 
difference, just like what Mallika said today with, you know, 
the conviction of the people who were involved in the December 
rape. Now, in that case there is the public outrage in the 
country today that rape is unacceptable. But you do not see sex 
selection as a crime, so therefore--yes, sir.
    Mr. Bera. I was just going to say, just to make sure I am 
hearing this correctly. You know, I was just in India a few 
weeks ago when, you know, there was another rape case, in 
Mumbai, and you saw this huge outcry of how this was 
unacceptable. Is it accurate, then, you are not seeing that 
same level of public outrage on sex selection?
    Mr. George. Yes, sir. We have made some progress in terms 
of seeing this as an issue of--you know, of like if--like until 
2001, there was not even much concern about the problem of sex 
selection. Then when the results of the census came out, you 
know, we did see. So there is some discourse in areas like 
Punjab, and it has been very badly affected. Like we are 
looking at ratios of 700, you know. We have much more 
discourse. But what we are frightened is the rest of the 
country, you know, have to follow reaching this levels before 
the society----
    Mr. Bera. Would you suggest that is a starting point, 
though, that actually engaging the public, creating this public 
outrage, or this public--either one of you--is that the 
starting point where the public actually gets engaged and says 
this is unacceptable?
    Ms. Dutt. I think that is a very critical point. I think 
that we have to look at multiple intervention points. I think 
the law is very important, implementing the law is very 
important, but certainly creating public outrage is a critical 
piece of the story.
    I mean, that is one of the reasons why Breakthrough 
believes in a culture change approach, and so we are in the 
process of testing different communication routes, and are 
looking to actually launch a campaign that is India's quest for 
its missing girls, and engaging young people in the sort of 
massive search where we really begin to question the underlying 
factors that are leading to this problem in the first place.
    Mr. Bera. Thank you.
    Mr. Smith. Mr. Weber.
    Mr. Weber. Ms. Dutt, this question is for you. I think you 
said that sex trafficking--or maybe it might have been you, Ms. 
McElya. The word is ``gendercide''? Which one of you all said 
that?
    Ms. McElya. I did.
    Mr. Weber. Okay. That is an interesting comment when you 
say it is gendercide.
    So let me get back to you, Ms. Dutt. You said that some of 
the women in the hospital where you went that night were burned 
for dowry. Well, they were burned because they didn't have one, 
they didn't have enough of one, because they were going to have 
to come up with one? Explain that.
    Ms. Dutt. So, you know, for whatever cultural reason, the 
way in which many women who have been in their marital homes 
are disposed of are by being burned. I mean, this is always----
    Mr. Weber. So they are not shot with a gun or stabbed to 
death; they are burned to death.
    Ms. Dutt. Right. I mean, in the U.S., the homicide rates 
are with guns, so in India we have burns. So that is the 
phenomenon that I was referring to.
    Mr. Weber. Okay, I got you.
    And then you said in your paper that you are for safe and 
legal abortion. Of course, as Chairman Smith pointed out, 
abortion is anything but safe for the unborn child. Would you 
agree with that?
    Ms. Dutt. You know, I think that this is one of those 
situations where, like I said before, I really deeply believe 
that for women, if we are going to ensure that they have access 
to their full human rights, that access to abortion, safe legal 
abortion, has to be a part of the full complement.
    Mr. Weber. The right to kill that unborn child is a human 
right?
    Ms. Dutt. You know, this is one of those conversations 
where we could turn this into going around in circles. I really 
believe----
    Mr. Weber. Well, I am getting to a point here. It is about 
the volume that has been mentioned here today numerous times, 
that there is 786 women to 1,000 men, or 786 girls to 1,000 
boys. Isn't that about the accurate--wasn't that about the 
right ratio?
    Ms. Dutt. Yeah, Representative Weber, but I think that the 
point that I am trying to make----
    Mr. Weber. Okay.
    Ms. Dutt [continuing]. Is that in order to deal with a 
wrong, you don't do another wrong. And so you don't take away 
the rights of women in order to empower women.
    Mr. Weber. Well, but I would submit this: If truly the 
numbers, the discrepancies of marrying women, that is what is 
cited in the paperwork over and over again--that sounds like 
they are calling our votes--then would you be okay--if a woman 
wants to terminate her pregnancy because it is not handy, not 
good timing to have another child, it is inconvenient, do you 
think that is a legal, a human right?
    Ms. Dutt. I think that given the way in which--given the 
many ways in which women are controlled and exploited and 
abused, it is very, very important for women to have----
    Mr. Weber. Ms. Dutt, it is----
    Ms. Dutt [continuing]. To have control over their own 
reproduction.
    Mr. Weber. So she has full control to terminate that 
pregnancy because it is inconvenient timewise.
    Ms. Dutt. I think women need to make the decisions that 
they need to make about their bodies, and their lives, and the 
timing of their children, and that decision really needs to 
reside with the woman.
    Mr. Weber. I am going to take that as a yes that you are 
talking about safe and legal abortion. And so if a woman 
decides that it is inconvenient to have a child because she is 
going to have a job, she is going on a trip, she has got other 
children that need her, whatever reason she deems it 
inconvenient, she terminates that pregnancy. That is what you 
have said, you have written it in paper, safe and legal 
abortion.
    So let us do this: 786 girls to 1,000 boys. Would you be 
okay if they went ahead and did selective abortion on males to 
try to even up those numbers?
    Ms. Dutt. You know, that is a really interesting question. 
I have never been asked that question.
    Mr. Weber. I mean, if a mother says, look, you know what, 
our country has too many males, so here is a male, and so now 
the trend is going to go the other way. We are going to 
terminate the males. Would that be okay?
    Ms. Dutt. You know, you really opened a very interesting 
line of thought in my mind around this question. Like I said, 
nobody has ever asked me this question before.
    At the end of the day, I would just come back to making my 
earlier point. I really do not believe that taking away rights 
from women is the way to empower them. If you are going to 
support the human rights of women and girls, we have got to 
support the human rights of women and girls.
    Mr. Weber. Do you support the human rights of men and boys 
as well?
    Ms. Dutt. Absolutely, and I----
    Mr. Weber. You would not be okay with swinging the pendulum 
the other way and aborting all of the males?
    Ms. Dutt. Absolutely not. And, you know, Breakthrough's 
mission statement says that we seek to make violence and 
discrimination against women and girls unacceptable so that all 
of us can live lives of dignity, equality, and justice.
    Mr. Weber. The violence against unborn women, or men, or 
children is okay.
    Ms. Dutt. You know, women really need to have the right to 
make those decisions for themselves, because the consequences 
to them when they cannot are enormous.
    Mr. Weber. So if a woman wants to kill her baby because it 
is a boy, and she is aware of this discrepancy of numbers, that 
is okay, that is her choice.
    Ms. Dutt. Women must have access to safe and legal 
abortion, and full access to safe health care.
    Mr. Weber. That, in essence, would be reverse sex 
selection; would it not? We would see the opposite of what you 
are here today to discuss.
    Ms. Dutt. I think that it should be clear from my remarks 
that the idea behind promoting women's human rights is not at 
the expense of men, but to get us to a world where all of us 
can really live to our full potential.
    Mr. Weber. Well, I would submit that there is 5,479 girls a 
day in India that aren't getting any kind of world or any kind 
of life.
    Ms. Dutt. And you are absolutely right. I mean, I don't 
think that any of us--and I certainly am not condoning gender-
biased sex selection. We do have a crisis. We have a very 
serious problem, and that is one of the reasons why we are 
putting so many of our organization's resources behind it. I 
think the only place that you and I are disagreeing, 
Representative Weber, are the solutions to it, but I think we 
are totally in agreement about the scale of the problem and 
what we need--and the fact that we really need to pay attention 
to it.
    Mr. Weber. You have already testified here today that you 
have never thought about if it went the other way, where they 
were aborting baby boys.
    Ms. Dutt. You know, the thing is that nobody has framed the 
question that way, and I thought that was a very interesting 
way to ask it.
    Mr. Weber. Well, think about that, because these are 
children, and if women decide that they have got too many males 
in India, then under the idea that women's rights or to 
terminate their pregnancy for whatever reason, then it could go 
the other way.
    Mr. Chairman, I will yield back.
    Mr. Smith. Thank you very much.
    Mr. Marino.
    Mr. Marino. Yes, thank you, Chairman.
    Good afternoon, panel. I would like to explore a little bit 
about the government's role from the national level down to the 
local level. I read an article not too long ago, and I just 
looked it up to make sure I had the facts right. Some time ago 
there was--I may have the ages wrong--a 5-, 7-, or 9-year-old, 
an 11-year old, three girls that were missing. They were found 
a couple of days later in a well, dead. The mother reported 
them the day that they went missing to the local police. The 
police did nothing about it, and the village then protested, 
actually blocked some type of road bypass, and got another 
level of government to look at it. And then it was determined 
that they were raped and then murdered.
    What is--let us look at the national level. Is there a 
serious attempt by the national government, by the Prime 
Minister, by the members of the legislature, and by law 
enforcement to address this issue, or is there a blind eye 
turned to this? Anyone?
    Ms. McElya. If I may, I want to respect and give Dr. George 
also time, but as I mentioned before, I am an attorney, and in 
my experience in working with a human rights organization in 
India, I couldn't practice law, but I had a team of Indian 
attorneys who were working for me. And in this international 
human rights organization, what we did in the south of India 
was we rescued people from bonded-labor slavery. And so I 
became familiar with the judicial system, the whole process in 
India of what starts a case. I became familiar with the intense 
amount of corruption that exists and how you can get the public 
justice system to work for the poor.
    So to answer your question, the laws are in place on a 
national level. I mentioned the PNDT Act, which was very good 
law, that outlaws sex-selective abortion. In addition, these 
crimes against women are illegal in India. And so on a national 
level the laws are in place.
    Mr. Marino. So why aren't they enforced?
    Ms. McElya. So they are not enforced, I would argue, 
because the lack of political will on the State level, on the 
smaller level; because there is corruption that goes on. You 
can even----
    Mr. Marino. I was a prosecutor for 19 years, I was a 
district attorney in Pennsylvania for 10 years, and I was a 
United States attorney with George W. Bush. And I prosecuted 
cases myself, even as the U.S. Attorney, murder cases, rape 
cases, drug cases, organized crime. And I am sure the system 
works fairly similar in your country to the extent that money 
funnels down from the national government to the States, 
correct?
    Ms. McElya. Correct.
    Mr. Marino. So what better way to force the lower levels of 
government to follow the law and to enact the law by saying 
funding is going to stop for this project for whatever money 
funnels down.
    So I am getting the impression that if the national 
government wanted this really to occur, they can have an 
enormous amount of influence over it, instead of saying, well, 
the problem is with the States. And the States are saying, the 
problem is with the smaller entities of government. I can't 
imagine that--there are national prosecutors, correct? Please.
    Mr. George. Thank you, Mr. Marino.
    We have a Federal system like--you know, and there is 
always conflict between states' rights, and unions' rights, 
just like what you have in the U.S. But, see, our first 
difficulty, like what you talked about rape. Now, in the last 
few months, you know, like what we heard about the December 
rape and what Ami Bera said about the Bombay rape recently. You 
know, it is becoming unacceptable politically for the political 
parties to support these kinds.
    For instance, just recently one of the most well-known 
spiritual leaders was put in jail because he was involved in 
rape. So what I am saying, this would not happen, say, even a 
year ago, so therefore, we are seeing progress. But, you know, 
given the kind of, you know, injustice we have had for several 
centuries, and given the virtual absence of women in public 
life--like I come from State of Kerala who for 140 years have 
had the largest proportion of women in our State. We have women 
live 5 years longer than men, the longest life expectancy in a 
State. But the role of women in public life is very limited. We 
hardly have women in legislature. So what I am trying to say is 
that it is a process we have to struggle with in terms of we 
cannot just give up just because there is failure at many 
levels, but what is interesting today, and people have decided 
in our country, it is not acceptable.
    Mr. Marino. Well, apparently the people from the village 
who protested and were--made it known that they wanted 
something done about this had an impact. Is there--and please 
don't take this pejoratively, I am not criticizing. I am a firm 
believer that--I have said over the years that the United 
States cannot impose its form of democracy on other countries 
because of the simple ideology and the history of that country. 
Life is very valued here in the United States, very valued. Can 
you tell me from your perspective, Dr. George, in India, how 
does that--the value of life in India compare to the value of 
life in the United States?
    Mr. George. I think it is much more--let us look at the 
Holocaust. Now, when the Holocaust was happening, it took many, 
many years of denial. Like even in the late 1930s, for 
instance, no country was willing to take on the Jews. So what I 
am trying to say is, now, by the time when the American, you 
know, Government was informed of it, you had Justice Brandeis 
guessing going to meet the President, FDR, and talking about 
what is happening in these concentration camps. Still there was 
a lot of delay. So what I am trying to say----
    Mr. Marino. It wasn't happening in the United States, not 
that that is an excuse, because I wrote an extensive paper on 
why did FDR wait so long to address this issue. But is it an 
issue of ideology?
    Mr. George. No, no. What I am saying is that what we 
dealing--like today, for instance, like in China, there is 
active public discourse on the question of sex selection, which 
is very important. Like, in China there is still very little 
public dialogue. So what I am trying to say is that when Chris 
Smith talks about China, sir, and I think you need to recognize 
that it is different. And the only way to deal with these 
problems is to engage, and I think we can make a difference.
    Mr. Marino. I am not arguing with you on the ideology, or 
the history, or the mind-set of people in India. I am trying 
to--I am asking you to educate me, to inform me as to is this a 
factor?
    Ms. McElya. I would argue today, and to be clear, just 
because there is good law in place does not mean that there is 
political will on the national level to enforce the laws.
    Mr. Marino. That is my point.
    Ms. McElya. I agree with you that there is not, and the 
Supreme Court announced a decision in March 2013, this year, 
saying the political will on a union level and on a State level 
is nonexistent. So the Supreme Court acknowledges exactly what 
you said, but the political will is not there. There has to be 
a combination of political will as well as social demand; a 
social demand for justice, a social demand for change, a social 
demand to recognize that these girls' lives are every bit as 
important as boys'.
    Mr. Marino. Sure they are. There is no question about that.
    Mr. George. Again, I mean, I heard--I was in the Supreme 
Court. I intervened in this case that Jill is talking about. We 
had a hearing on the 3rd. So what I am trying to say is that in 
the State of Maharashtra, you know, the risk, the concerted 
efforts of this lawyer, the political parties are supporting 
the implementation of the law. So you have an example, sir, 
that the laws have been taken seriously, and it has made a fact 
of----
    Mr. Marino. Let me pose this, then. We are going through an 
issue concerning Syria, and the overwhelming, the overwhelming 
numbers, percentages in the country, in the United States, not 
to intervene is extraordinary. I have never seen numbers from 
Republicans, Democrats, Independents and people who don't even 
vote so high as to say, we do not want to get involved.
    Now, you are looking for some help from the United States, 
and the United States, for the most part, is always there to 
try and help, but how do we sell to the American people the 
idea of aid of some type or another, whether that is monetary, 
or whether that is, you know, people on the ground through 
USAID or some other entity--how do we convince the American 
people if the national government in India does not appear to 
take this seriously? Why are we going to spend the time, the 
effort, the resources if India isn't taking what I perceive as 
being the necessary immediate steps to implement the law?
    Mr. Connelly. Can I say something?
    Mr. Marino. Please.
    Mr. Connelly. I mean, on the point of--and I agree with 
you, it is a fundamental point, how do we understand why it is 
that people apparently don't value life. I mean, to be fair, it 
is an American idea to pay people money to agree to 
sterilization. That was an American idea. And not only that, it 
was an American economist working for the Johnson 
administration who calculated the numbers to come up with how 
much he should pay parents to agree to sterilization. And the 
reason for that is that he calculated the future value of an 
Indian life was less than nothing. And so it was for that 
reason that he thought that it would make sense not only for 
India, but----
    Mr. Marino. But sterilization is very, very different from 
murder. Okay? Very different.
    Mr. Connelly. A lot of people died through botched 
sterilization operations.
    Mr. Marino. Granted, okay, I understand that, and I am not 
mitigating that at all, but not in the numbers you are talking 
about what is taking place in India. So that is a very tiny, 
infinitesimal amount.
    First of all, I can't imagine, I bet there is nobody in 
this room that would agree with anything like that today. But 
let us deal with the facts today that are at hand. There is an 
abomination taking place in India. Just about every other 
country in the world, when they have problems, whether they 
like us or not, comes to the United States for help, and we are 
known for that. And I am proud of that. But again, it is a 
tough sell, given the financial crisis that we are in, given 
the state of affairs around the world, and it sounds to me that 
the national government can put pressure on the States, who can 
put pressure on the locals to address this issue, I think, 
seriously. Am I wrong?
    Ms. McElya. Yes, I think you are correct. And just as we 
require India to report on what they are doing to eliminate 
trafficking, because of the Trafficking and Person Protection 
Act----
    Mr. Marino. So what do we do?
    Ms. McElya. Let us institute something in our Government, 
again, that requires them and other countries where we see that 
there is a problem with gendercide to report on what they are 
doing to protect their girls, and what they are doing on a 
national level to put pressure on the States so that there is 
no more elimination, so there are no more missing girls.
    Mr. Marino. Does this have anything to do--I am sorry, I am 
running way over my time, Chairman. Does this have anything to 
do with trying to stabilize the increasing population in India? 
Is there an ulterior motive here? Okay, this is a way to 
resolve one of the major problems that we have?
    Mr. George. That is a very shortsighted way, even if that 
has been an intended or unintended consequence, because what we 
are dealing with is incredible increase in violence against 
surviving women. So therefore, you know, to come up with one 
problem, you know, to resolve one problem population by 
creating more violence in the society is no way to----
    Mr. Marino. I agree with you. Don't think I am taking an 
opposite side here. I am just asking, could that be a thought 
in the national government's attempt to control the population?
    Mr. George. Yes, sir. I mean, that is within sections of 
the----
    Mr. Marino. So it goes to ideology. It goes to--we have 
problems in India, and I am just speaking generically, so in a 
way to deal with those, we are going to turn our head to this 
catastrophe that is taking place. We know it is an abomination, 
but it could help stabilize our growing population. I mean, is 
that--have you ever thought of this? Or has anyone ever talked 
about this?
    Ms. McElya. Absolutely, and I would argue yes. That is part 
of the reason why they are turning a blind eye. That and, as 
Ms. Dutt mentioned, just the preference for sons and the 
discrimination against girls.
    Mr. Marino. This isn't just a one-factor issue. I 
understand that.
    But thank you, you have educated me. And I yield back.
    Mr. Smith. Let me ask each of our panelists, this would be 
a basic yes or no question, whether or not you support or 
oppose the Preconception and Prediagnostic Techniques Act of 
1994, or the PND Act?
    Mr. Connelly. You would have to remind me, I am sorry.
    Mr. Smith. Sex-selection abortions act.
    Mr. Connelly. Of course, I would support it, yes.
    Mr. Smith. You support the act?
    Mr. Connelly. Yes.
    Mr. Smith. I just want to get on the record.
    Mr. George. So let us be very clear. The Preconception 
Prediagnostic Techniques Act. The purpose of the act is on the 
act of determination, not on abortion.
    Mr. Smith. Right.
    Mr. George. So let us be very clear. I don't want to 
mislead you. The focus of the act is on stopping determination, 
because the act sees sex selection as discrimination. So we are 
not dealing with abortion.
    Mr. Smith. So sex-selection abortion is not proscribed in 
India?
    Mr. George. No, determination of the fetus.
    Mr. Smith. Please, so we know absolutely. Is there a law in 
India that says it is illegal to have a sex-selection abortion?
    Mr. George. No. What it says, the law, PNDT Act that you 
mentioned, is against discrimination. It talks about not just--
it focuses on determination of sex. So it could be the fetal 
sex, it could be the embryo sex, it could be the preconception 
sex. The determination, because that is--because we also have a 
law [inaudible], which makes it legal, so the focus of this law 
is determination. So it is not sex-selection abortion.
    Ms. McElya. When you determine the sex of your child, and 
then you determine that she is a female and then go have an 
abortion, that is illegal because you have broken the act in 
determining the sex of the child. And so, yes, I am in favor of 
this act.
    Mr. Smith. Ms. Dutt?
    Ms. Dutt. Yes, in favor.
    Mr. Smith. Let me ask Dr. Connelly: Can you expand on the 
role USAID historically played in the course of population-
control programs in India? You mentioned Australia's AID agency 
in your written report, what they do. What about those other 
countries such as Sweden's SIDA, and maybe other countries, 
too, if you want?
    Mr. Connelly. USAID played an enormous role in funding 
population control. In the 1970s, USAID provided more 
international aid for family planning, so-called, than the rest 
of the world put together.
    That said, USAID, unlike, say, Sweden, for instance, and a 
number of other foreign aid agencies, didn't provide money for 
incentives for sterilization payments. On the other hand--now I 
have got three hands--the head of the----
    Mr. Smith. Dr. Connelly, on the coercive side.
    Mr. Connelly. Right. On the coercive side. Well, for me, 
paying poor people who are hungry for sterilization is 
coercion.
    Mr. Smith. We did that in India?
    Mr. Connelly. No, actually USAID did not do that. They did, 
on the other hand, pay for incentive payments for the providers 
to carry out these procedures, which, as you can imagine, is 
ripe for abuse.
    Mr. Smith. Historically the rural populations and castes 
targeted for population control, were the Dalits, for example, 
singled out for more abusive treatment?
    Mr. Connelly. That is a matter of, you know, great 
controversy, continuing controversy. If you look at the 
statistics, you know, from the emergency period, for instance, 
it does seem that the Dalits were singled out. And, you know, 
whether this is because they were often the poorest and most 
disenfranchised, or whether it is because they are Dalits, that 
part is not clear.
    Mr. Smith. Without objection, the testimony submitted by 
Mara Hvistendahl will be made a part of record. She couldn't be 
here today, but wrote an extensive submission for this 
subcommittee. She points out in her testimony that sex-
selective abortion following ultrasound scans is by far the 
most common means of sex selection worldwide. Do you agree with 
that?
    Mr. Connelly. I don't know that I can verify that about the 
present, but, you know, to my knowledge, that is consistent 
with what I have seen.
    Mr. Smith. Dr. George?
    Mr. George. Yes, sir. Now if you look at--see, India is a 
big country. If you look at China also, you know, there are 
regional differences. So, you know, sexing started extensively 
in the private sector in Punjab in 1979. So when you look at, 
you know, some--many of the other parts of India, southern 
India, eastern India, the sex selection started later. If you 
look at my State of Kerala, even 10 years ago the rate of 
ultrasound usage was the highest in pregnancy. Hardly any 
misuse was being done for sex determination, but in recent 
years we are seeing.
    So it depends on when the sexing started, so when the 
ratios fall. So therefore, it--as the whole country we cannot 
see, but what I am saying is that it depends on where you are. 
So if you are looking at Punjab, Delhi, Haryana, yeah, you are 
right. Sex determination becomes the most important cost yet 
with postchild neglect. It is much less where infanticide is 
much less.
    So what I am trying to say is that in 1981, I came to the 
U.S. to study nutrition because we saw malnutrition of girls as 
a big problem. Those days the sexing was very little, and 
infanticide was very little, but today we see that as sexing 
becomes more and more of the norm, then these things become 
very different.
    Mr. Smith. Ms. McElya?
    Ms. McElya. In the studies that I have done through our 
work, you can see the gender ratio dropping every 10 years in 
the census. I believe in 2001, between the ages of zero and 6, 
the girls were--ratio was 927 to 1,000 boys. In the 2011 
census, it is 914 girls to 1,000 boys. And that is, once again, 
ages of zero to 6. And through experts in this field in India, 
they say that this is a direct product of sex determination 
through ultrasound, and that it is becoming much more 
prevalent.
    Now, granted in our work we deal with a lot of people who 
are very, very poor, and who cannot afford the sex-
determination test through ultrasound, and so they are still 
committing infanticide, and these are people in the rural 
villages in India. But when people can afford it, they will 
have sex-determination tests done through ultrasound, and they 
will choose to abort their children, their daughters, because 
of what they have learned in ultrasound.
    Mr. Smith. Ms. Dutt?
    Ms. Dutt. I am afraid I really have to look at the numbers. 
I mean, I am kind of lost a little bit of the track of what 
was----
    Mr. Smith. Her question--her declarative sentence was sex-
selective abortion following ultrasound scans is by far the 
most common means of sex selection worldwide. Do you agree with 
that?
    Ms. Dutt. I really don't. I would really have to look at 
the numbers. I don't know.
    Mr. Smith. Can you do that and get back to us for the 
record? That would be appreciated.
    Ms. Dutt. Sure.
    [The information referred to follows:]
   Written Response Received from Ms. Mallika Dutt to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith
    Identifying specific means of gender-biased sex selection is 
difficult because this phenomenon so often occurs outside traditional 
healthcare systems and without official reporting. But additionally, 
the question is flawed because it does not get at the root cause of 
gender discrimination of which son preference is one example. Gender 
discrimination is widespread and multi-faceted.
    A complex web of socioeconomic and cultural factors results in 
discrimination against girls, which manifests in sex-selective 
practices. Technologies used for sex selection have compounded the 
problem, not caused it. Therefore, change can only be achieved through 
a broad-based, multifaceted and dedicated effort to combat the 
underlying causes of son preference and gender discrimination.
    In India, ultrasounds for illegally determining the sex of the 
fetus are very common due to access and because the technology is 
inexpensive, reaching even the most interior areas of the country. 
Today in India itself there are over 1.2 million sex selective 
determinations through ultrasound and other technologies resulting in 
over 600,000 girls missing or prevented from being born.
    On the means of gender-biased sex selection, in many places 
abortion may be currently the most common form it takes, however 
research indicates that son preference will persist even where access 
to ultrasounds or abortion is not available. In some cases families 
will resort to female infanticide or long-term oppression and neglect 
of girl children.

    Mr. Smith. She also points out that there has been a spike 
in trafficking, prostitution and bride selling in India as an 
aftereffect of sex-selection abortions and sex selection in 
general. Mr. Weber just left. He wrote the law in Texas on 
combating sex trafficking. My good friend and colleague Mr. 
Marino enforced it as the U.S. Attorney, enforced my law, 
because I wrote the Trafficking Victims Protection Act of 2000.
    We have tried for years to get the U.S. Department of State 
to focus both on China and India, that there is a nexus between 
the two. Finally this year the administration--and I credit 
Luis CdeBaca for--the Ambassador-at-Large for being dogged in 
trying to ensure that this connection be made. The Trafficking 
in Persons Report for this year announced in June--I was at the 
announcement with Secretary of State John Kerry--made it 
absolutely clear that this is a major factor in what is 
becoming an outrageous phenomenon of commodifying women and 
selling them because there is a dearth of women. They have been 
exterminated systematically through sex-selection abortion.
    We have not had a corresponding acceptance of that notion 
in India. And I am wondering if any of you could shed light 
on--you know, as Ms. Hvistendahl points out, you know, she has 
a whole section on human trafficking and points out that 
India's impoverished Northeast is a common source of trafficked 
women, and, of course, the lack of women, of course, leads to 
more bride selling and trafficking.
    Is it your view that--I am not here to talk about China, 
but is it your view or would any of you like to take a stab at 
the issue of trafficking, and sex-selection abortion, and sex 
selection in general leading to an exacerbated situation?
    Ms. Dutt. You know, I started working on the issue of 
trafficking and forced prostitution in India in 1982, and I 
actually did my senior thesis in college at Mount Holyoke on 
the subject. And at that time there was very little attention 
being placed on the issue of trafficking. And one was also 
looking at the phenomenon of mail-order brides to the United 
States from various Southeast Asian countries, and returning 
GIs and soldiers marrying women and bringing them back.
    And so, you know, my experience with the issue of 
trafficking and forced prostitution goes back, obviously, 
several decades, and I am not entirely sure that I would be 
willing to say that there is a cause-and-effect relationship 
between gender-biased sex selection and trafficking in women 
and girls, because my work on that started a long time ago, and 
that--the current statistics on that situation did not exist 
then.
    I think that the issue of gender-biased sex selection and 
trafficking in women and girls are both manifestations of 
gender-based discrimination, which has multiple roles, as we 
have discussed earlier in the testimony. And I think to make 
the connections, that sort of direct causal relationship 
between gender-biased sex selection and trafficking, you know, 
of course, the unequal sex ratio is leading to other kinds of 
consequences, but to say that this is a consequence of that 
rather than underlying patriarchy and gender-based 
discrimination, I think, is incorrect.
    Mr. Smith. Let me understand. You would disagree with the 
U.S. Department of State's findings that it is a cause of sex 
trafficking. The absence of women and the cause of their----
    Ms. Dutt. I don't think it is a cause. I think that the 
problem is gender-based discrimination and the objectification 
of women, and the fact that men are not raised to look at women 
and girls differently. I think the problem really is how men 
view women, if you really want to talk about the causes of the 
problems that we are facing today.
    Mr. Smith. But with skewed ratios and the absence of women 
to marry--and, again, both India and China have enormously 
skewed ratios; others are joining those ranks, not quite as 
much so--you don't believe that leads to entrepreneurs, 
nefarious entrepreneurs at that, who turn women into 
commodities and buy and certainly sell them?
    Ms. Dutt. The trafficking industry uses whatever factors it 
can. It uses poverty.
    Mr. Smith. What about the dearth of women who then----
    Ms. Dutt. Well, that is one of many, many factors. To say 
there is a causal relationship between one and the other and to 
ignore patriarchy and gender-based discrimination----
    Mr. Smith. Who is ignoring? That is a strawman's argument. 
I am not ignoring any other issues. What I am suggesting is 
that when women don't exist because they have been 
systematically exterminated through sex-selection abortion, 
and, again, Ms. Hvistendahl points out that that is by far the 
largest cause of the missing girls worldwide, it certainly 
leads to people looking for women who don't exist, and then in 
come the pimps who sell these women to the nearest buyer.
    Ms. McElya, if you could speak to that.
    Ms. Dutt. But the trafficking is before that.
    Mr. Smith. I am out of time almost. Of course it has gotten 
worse, demonstrably worse, because when I wrote that law, 
finally the State Department has recognized it, and we are 
hoping that they recognize it vis-a-vis India, and they have 
not yet.
    Ms. McElya. Thank you, Chairman Smith.
    As I wrote in my statement and I touched on briefly in my 
oral statement before the committee, yes, you can see a 
correlation. There is--because there are 37 million men who 
will never find wives, there has to be a result, and the result 
is trafficking; studies show trafficking, violence against 
women, marrying of child brides. The percentage of young girls 
who get married in India, it is 47 percent below the age of 18 
who are married off to these men because they are looking for 
women to marry.
    And so there is a correlation. I mean, you can't--I think 
that you have to recognize that trafficking is a result of what 
is going on in this discrimination against girls and women 
through sex-selective abortion, through infanticide, through 
feticide.
    Mr. Smith. To borrow an inconvenient--or someone else's 
word, it is an inconvenient truth, in my opinion. It is almost 
as plain as the nose on my face that when the women don't exist 
because they have been exterminated in utero, that men who are 
looking for a woman, unfortunately, are more easily susceptible 
to those, again, nefarious networks of pimps who sell them.
    Dr. Connelly, do you want to speak on that?
    Mr. Connelly. You know, one thing I know about trafficking 
is that it is notoriously difficult to get accurate statistics. 
One thing about sex ratios is that we have very good data. You 
know, these are vital statistics, and so we can keep close 
track of it and track the change over time, whereas reporting 
on sex trafficking is a statistician's nightmare. So it is a 
little hard, you know, to verify a causal relationship between 
the two.
    Mr. Smith. Well, it took the State Department a long time 
on China, but they finally have come to that conclusion, and, 
again, it is in their most recent report. And the Obama 
administration absolutely does not agree with my view on the 
sanctity of an unborn child's life, but nevertheless they came 
to that conclusion that there is a nexus between the two.
    I want to thank all of you for your testimony. I think it 
has been a very spirited and, I think, robust discussion. It is 
not the end of it. I do believe that violence against the 
unborn child, or the newborn child who happens to be female, or 
anyone else cries out for protection. It is human rights or 
nothing if they are not for all. You know, and so again, Ms. 
Dutt, I would respectfully disagree with you on your view, but 
I do believe passionately that abortion is violence against 
children, and it is injurious to women, and, again, it has made 
this issue of missing girls demonstrably worse. And that is, I 
think, a matter of statistics that are understandable.
    Thank you so much for your testimony. I am going to try to 
make that vote, which I might have missed. I really appreciate 
your providing the insights that you have today.
    The hearing is adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Material submited for the record by the Honorable Ami Bera, a 
        Representative in Congress from the State of California

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Material submitted for the record by Sabu George, Ph.D., independent 
                               researcher

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
